0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
, United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 19-1225, Paul
Hunt v. Board of Regents of the University of New
Mexico, et al., was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service, and e-mail to the following parties listed
below, this 18th day of June, 2020:
Stephen S. Hamilton
Counsel of Record
Matthew A. Zidovsky
Kari E. 0 Ison
MONTGOMERY & ANDREWS, P.A.
325 Paseo de Peralta
Santa Fe, NM 87501
(505) 982-3873
SHamilton@montand.com
Counsel for Respondents
William S. Consovoy
Counsel of Record
Thomas R. McCarthy
Tiffany H. Bates
Antonin Scalia Law School
Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

I

8790 Governor's Hill Drive

Suite 102
Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 18, 2020.

DonnaJ. Wo~
Becker Gallagher Legalublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

r V{;f c /JP1 q[}O()

da~ tJ

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

